<html>
<title> - VARIOUS MEASURES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




                            VARIOUS MEASURES

=======================================================================

                                 MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

          H. Res. 185, H. Res. 218, H. Res. 274, H. Res. 317,

                       H. Res. 359 and H.R. 2646

                               __________

                             JUNE 29, 2017

                               __________

                           Serial No. 115-49

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-047 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



































                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
BRIAN K. FITZPATRICK, Pennsylvania































                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H. Res. 185, Calling on the Government of Iran to fulfill 
  repeated promises of assistance in the case of Robert Levinson, 
  the longest held United States civilian in our Nation's history     3
H. Res. 218, Recognizing the importance of the United States-
  Israel economic relationship and encouraging new areas of 
  cooperation....................................................     8
  Amendment in the nature of a substitute to H. Res. 218 offered 
    by the Honorable Ileana Ros-Lehtinen, a Representative in 
    Congress from the State of Florida, and chairman, 
    Subcommittee on the Middle East and North Africa.............    14
H. Res. 274, Condemning the Government of Iran's state-sponsored 
  persecution of its Baha'i minority and its continued violation 
  of the International Covenants on Human Rights.................    19
  Amendment to H. Res. 274 offered by the Honorable Ileana Ros-
    Lehtinen.....................................................    25
H. Res. 317, Calling for the unconditional release of United 
  States citizens and legal permanent resident aliens being held 
  for political purposes by the Government of Iran...............    26
  Amendment in the nature of a substitute to H. Res. 317 offered 
    by the Honorable Ileana Ros-Lehtinen.........................    31
H. Res. 359, Urging the European Union to designate Hizballah in 
  its entirety as a terrorist organization and increase pressure 
  on it and its members..........................................    35
H.R. 2646, To reauthorize the United States-Jordan Defense 
  Cooperation Act of 2015, and for other purposes................    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD

The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Subcommittee on the 
  Middle East and North Africa: Material submitted for the record    47

                                APPENDIX

Markup notice....................................................    56
Markup minutes...................................................    57
Markup summary...................................................    58

 
                            VARIOUS MEASURES

                              ----------                              


                        THURSDAY, JUNE 29, 2017

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. We 
have members who are here and drinking some coffee in the side 
room, so I am not starting without Ted. He is really here. And, 
Mr. Connolly, I don't know if you have seen the current issue 
of Time Magazine, but like President Trump, Mr. Connolly is the 
cover boy for this week's edition and the headline is 
``Connolly is Winning So Much He's Increasingly Tired of 
Winning,'' correct? But congratulations. It is not everyone who 
can be on the cover of Time.
    But we meet today pursuant to notice----
    Mr. Connolly. If I may?
    Ms. Ros-Lehtinen. Yes, sir. Yes, sir.
    Mr. Connolly. It tells you something about how literal-
minded some people can be, though. I have had people saying 
congratulations, it is about time you get recognized, will you 
sign the cover for me, you know. Oh, well. So thank you, 
everybody.
    Ms. Ros-Lehtinen. Congratulations. I will have to bring in 
my edition and you can sign it for me, as well. We will auction 
it, give it to charity.
    But we meet today pursuant to notice to mark up six 
bipartisan measures. As your offices were previously notified, 
it is the intent of the Chair to consider today's measures en 
bloc, and so without objection, the following items, which were 
provided to members earlier this week, are in your packet are 
considered as read and will be considered en bloc.
    House Resolution 185, Calling on the Government of Iran to 
fulfill repeated promises of assistance in the case of Robert 
Levinson, the longest held United States civilian in our 
Nation's history; House Resolution 218, Recognizing the 
importance of the United States-Israel economic relationship 
and encouraging new areas of cooperation; Ros-Lehtinen 
amendment in the nature of a substitute to House Resolution 
218; House Resolution 274, Condemning the Government of Iran 
state-sponsored persecution of its Baha'i minority and its 
continued violation of the International Covenants on Human 
Rights; Ros-Lehtinen amendment 28 to House Resolution to 274; 
House Resolution 317, Calling for the unconditional release of 
United States citizens and legal permanent resident aliens 
being held for political purposes by the Government of Iran; 
Ros-Lehtinen amendment in the nature of a substitute to House 
Resolution 317; House Resolution 359, Urging the European Union 
to designate Hezbollah in its entirety as a terrorist 
organization and increase pressure on it and its members; and 
H.R. 2646, The United States-Jordan Defense Cooperation 
Extension Act.
    [The information referred to follows:]
    
    
    
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
  
    Ms. Ros-Lehtinen. After my remarks and the ranking member's 
remarks on these measures, I will be glad to recognize any 
other members seeking recognition. Without objection, all 
members may have 5 days to submit statements for the record on 
today's business.
    Today, we have before us a series of important measures 
that get to the heart of some of the subcommittee's top 
priorities. Unfortunately, for the third straight Congress, we 
are marking up yet another resolution presented by Ranking 
Member Deutch on behalf of his constituent, Robert Levinson, 
who went missing in Iran and is the longest held United States 
citizen in our history.
    While the Levinson family laments his absence, his life's 
milestones continue without Bob. We dedicate our commitment to 
bringing him home to his family and to continuing to press the 
administration to demand the regime fulfill its promises. And 
we do so in tandem with my resolution, House Resolution 317, 
which calls upon Iran to release unconditionally all U.S. 
citizens, U.S. legal permanent resident aliens, and foreign 
nationals that the regime has unjustly detained and is holding 
hostage.
    Ever since Iran signed the JCPOA and received a ransom 
payment in exchange for American hostages, it has sought to 
take advantage of what it believed was a lucrative policy. It 
was emboldened and has since imprisoned dual U.S.-Iranian 
citizens: The Namazis, a father and son, who have been 
separated from their family, sentenced to prison on unjust and 
trumped-up charges and whose health and well-being are in 
jeopardy.
    The regime has imprisoned U.S. legal resident, Nizar Zakka, 
and sentenced him to 10 years under false charges. Mr. Zakka 
announced this week that he has begun a hunger strike. This 
subcommittee has received an audio of Mr. Zakka where he 
states, ``I am innocent. Never done any crime in my life.'' I 
would like to ask unanimous consent to insert into the record a 
transcript of the transcribed telephone conversation of Mr. 
Zakka from Evin Prison in Iran.
    [The information referred to follows:]

Material submitted for the record by the Honorable Ileana Ros-Lehtinen, 
 a Representative in Congress from the State of Florida, and chairman, 
            Subcommittee on the Middle East and North Africa



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Ms. Ros-Lehtinen. My resolution also calls on Iran to 
fulfill its promises regarding Robert Levinson, Mr. Deutch's 
constituent. This will be the third consecutive Congress that 
Ted and I mark up a resolution on Iran's persecution of the 
Baha'i, and we would like to recognize some of them are in the 
audience today. Since the 1979 Islamic revolution, over 200 
Baha'i leaders have been executed. Many more have been 
arbitrarily imprisoned. More than 10,000 have been dismissed 
from government and university posts.
    We are calling on the United States and others to use these 
tools and all available authorities to sanction individuals 
directly responsible for these serious human rights abuses, and 
not just against the Baha'is.
    We must be willing to do what is right and demand that Iran 
release all hostages and hold the regime accountable for its 
human rights abuses and for its illicit activities. That is why 
we are also here to take up House Resolution 359, urging the 
European Union to designate Hezbollah, in its entirety, as a 
terrorist organization, and this is authored by Ranking Member 
Deutch and Mr. Bilirakis. The notion that they could be 
separate wings of a terrorist organization and that one wing is 
bad, and full of terrorists, but the other wing is merely a 
political organization; that is an absurd thought. There can be 
no justification for such a bifurcation.
    Iran is a state sponsor of terror, and Hezbollah is its 
foremost proxy. The European Union needs to wake up, and we 
must urge it and its member states to designate the whole of 
Hezbollah as the terrorists that they are. Also a great tool to 
combat Hezbollah's activities is to strengthen our relationship 
with the democratic Jewish state of Israel, which is why we are 
pleased to take up Ted Lieu's House Resolution 218--thank you, 
Mr. Lieu--recognizing the importance of that economic 
relationship and encouraging new areas of cooperation. Israel 
was the first country we signed a free trade agreement with 
over 30 years ago, and while the economic and commercial ties 
remain strong, we can certainly find ways to upgrade and 
improve those.
    That is why Mr. Lieu's resolution is important, because it 
stresses the support not only to expand our economic 
relationship, but it also urges the President to explore new 
agreements with Israel in the fields of cybersecurity, 
technology, medicine, agriculture, water, and energy. We have 
already seen this happening between Israel and Jordan, 
especially in the fields of energy and water.
    And that is one of the major goals of our final measure, a 
bill I authored alongside Mr. Deutch, Hal Rogers, Nita Lowey, 
and Adam Schiff, the United States-Jordan Defense Cooperation 
Extension Act. I am glad to see that Congresswoman Kay Granger 
of Texas has also cosponsored the bill. The Act would authorize 
the U.S. to enter into a new 5-year memorandum of 
understanding, MOU, with Jordan. The Kingdom has been on the 
front lines in the fight against ISIS, and in the humanitarian 
crisis, we must stand with our ally and continue to strengthen 
its security capabilities.
    This bill would also authorize the creation of a Jordanian 
Enterprise Fund, which is precisely what Jordan needs to 
attract private investment to help entrepreneurs and small 
businesses create jobs and spur economic development in Jordan. 
We are hopeful that we can tie some economic developments in 
Jordan alongside its neighbors, including Israel, to spur 
economic growth and bring these nations closer together to 
create long-term stability.
    So I urge my colleagues to support all of these measures, 
and the Chair now recognizes the ranking member, Mr. Deutch, 
for his statement.
    Mr. Deutch. Thank you, Madam Chairman, I would like to 
express my support for all of these measures before us today. I 
am proud to be a cosponsor of each of them, and I thank the 
chairman for moving this bipartisan slate of bills.
    The U.S.-Jordan relationship is one that provides needed 
stability throughout the region, and I am pleased to join the 
chair in offering this legislation, which will further ensure 
that Jordan has the resources she needs to defend herself and 
to help shore up the Jordanian economy.
    I would like to thank Mr. Lieu for his resolution 
highlighting the U.S.-Israel economic partnership, the country 
with the third most companies listed on the NASDAQ is Israel. 
Israel has been a true incubator for innovation, just one of 
the many reasons that the United States and Israel enjoy deep 
cooperation on a wide range of issues.
    I want to thank the chairman for bringing forward the 
resolution I introduced with Mr. Bilirakis urging the EU to 
designate Hezbollah as a terrorist organization. I thank the 
many members of this committee who have cosponsored this 
measure.
    In 2013, the EU listed Hezbollah's military wing as a 
terrorist organization. It has yet to include Hezbollah's 
political wing. There is no distinction. This is one terrorist 
organization, one that is wreaked havoc across the globe for 
over 30 years, from the bombing of a Jewish center in Argentina 
in 1994 to the bombing of a tourist bus in Bulgaria in 2012, to 
its thousands and thousands of fighters doing Iran's dirty work 
inside Syria, propping up the murderous Assad regime.
    The so-called business affairs component of Hezbollah 
brings in hundreds of millions of dollars a year through 
narcotrafficking, money laundering, and counterfeiting 
operations throughout Latin America, Africa, and Europe. I 
applaud the cooperation that has taken place between law 
enforcement agencies across Europe, and our own, to crack down 
on these illicit activities, but we cannot continue to pretend 
that any part of Hezbollah has any sort of legitimacy. I urge 
our European friends to take action now and designate the whole 
of Hezbollah as the terrorist organization that it is.
    I would like to spend my remaining time talking about the 
despicable human rights abuses taking place in Iran against the 
Iranian people, and against foreign nationals. First, House 
Resolution 274 condemns the horrific persecution of the Baha'i 
faith in Iran.
    For years, Baha'is have been subject to government raids on 
their businesses, their schools, and their homes. They are 
prevented from working in government jobs, from attending 
colleges, and from worshipping. There are currently 93 Baha'is 
in prison in Iran. Iran's persecution of the Baha'is and 
another minorities is just another example of this brutal 
regime's complete and total disregard for human rights and 
international norms.
    Second, House Resolution 317 calls for the immediate 
release of all Americans held in Iran. For too long, this 
regime has taken American and other foreign nationals prisoners 
on trumped-up charges resulting in sham trials and outrageous 
sentences. There is no rule of law. There is no due process. 
This is nothing more than hostage taking, and it must stop. 
This committee has a long history of speaking out against these 
unjust attentions, and we will not sit idly by while Americans 
languish in Iranian jails. And every responsible nation should 
join us in condemning Iran and calling for the immediate 
release of these Americans and other foreign nationals unjustly 
held in Iran.
    And, finally, I would like to thank the chairman and the 
other cosponsors of House Resolution 185, which calls on Iran 
to return my constituent, Bob Levinson. For those of you who 
have served on this committee for a while now, you have heard 
me tell Bob's story many times. You have heard me tell it to 
three Secretaries of State, to U.N. Ambassadors, to State 
Department officials. You have heard it while members of the 
Levinson family sat before you in this very room. I will keep 
telling Bob's story until Bob is home in South Florida with his 
wife of over 40 years, Christine, with his seven children, 
Susan, Stephanie, Sarah, Samantha, Dan, David, and Doug, his 
sons and daughter-in-law and his seven grandchildren.
    One of Bob's grandsons recently underwent treatment for 
cancer. Thankfully his prognosis is good, but it makes me sick 
to think that this family had to endure those months of 
treatment without their husband, their father, and their 
grandfather. Bob's eighth grandchild is due any day now.
    On the 10th anniversary of Bob's disappearance back on 
March 9th, I said that Bob should be home in time for the 
birth, but here we are, 10 years, 3 months and 20 days from the 
date Bob went missing in Iran. That is too long for any family 
to go without their loved ones. Iran must return Bob now. If 
this regime claims it doesn't have Bob, it knows who does. More 
promises of assistance are too little too late. The time for 
action is now.
    Iran wants sanctions relief? Iran wants foreign investment? 
Why would any responsible company do business in a country that 
illegally kidnaps and detains foreigners? And I might ask, why 
would any reasonable American company do business in a country 
that kidnaps American citizens?
    Bob Levinson is now the longest-held American hostage, but 
I remain hopeful. I am hopeful that this administration will 
continue to exert pressure on Iran. I am hopeful that we will 
soon welcome Bob home to Coral Springs, Florida. I am hopeful 
that Bob will be home to see the birth of his next grandchild.
    Madam Chairman, you have been a heroic ally with me in this 
effort. I thank you for being my partner. I thank you for 
bringing forward all of these bipartisan measures today, and 
for continuing to conduct this committee in such a strong 
bipartisan manner. And I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch, and I am 
sure the family is just so grateful for you being a fighter for 
Bob all the time. Thank you, Ted.
    Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Madam Chair. Thank you for holding 
this hearing, this markup this morning. I first want to speak 
briefly on H. Res. 185 by first commending you and also Mr. 
Deutch for your relentless dedication to the case of Robert 
Levinson, as my colleagues mentioned, the longest-held U.S. 
civilian hostage in American history. And I would like to 
associate myself with both of the remarks that you have made 
this morning and not repeat everything.
    I know that my colleagues will continue to press this 
issue. The U.S. has consistently called for the safe return of 
Mr. Levinson and requested Iranian assistance in the matter, 
and the administration and our allies must continue to include 
Mr. Levinson's disappearance in any future communications with 
Iran. Iran has continued to make promises, yet no tangible 
results. Unfortunately, it is probably not surprising, as we 
are talking about Iran here.
    I also rise in support of H. Res. 218, a resolution that I 
cosponsored, aims to strengthen U.S.-Israel economic 
relationship. A strong economic partnership is critical to 
Israel, and it is also obviously in the United States' 
bestinterests, as well. Israel continues to be one of our, if 
not our strongest allies, on the globe, and we want to make 
sure that that continues.
    Furthermore, in light of Ambassador Haley's remarks, and 
she, of course, was before the full committee as recently as 
yesterday, regarding the U.N. Human Rights Council's targeted 
assaults on Iran this legislation is particularly timely. As we 
all know, Israel consistently seems to be the target, of all 
things, the Human Rights Council in the U.N. They spend, it 
seems, at least, half their time targeting Israel, criticizing 
Israel. It is absolutely absurd. And then they will say nothing 
about human rights abuses in Venezuela or Cuba or a whole range 
of other pretty horrible places right now for human rights on 
the globe.
    Yet, Israel consistently is a target, so I think this is 
very timely that we are passing this today. We have to show our 
partners all around the world that we will continue to support 
Israel in every possible way, and H. Res. 218 reaffirms that 
position.
    So I would urge my colleagues to support all of the 
measures we have before us. I think they are all good, but I 
wanted to particularly talk about those two. Thank you very 
much. I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Chabot. Thank you for your 
words. And now we will turn to cover boy, Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman. And thank you for 
bringing these bipartisan bills to us today. I am proud to 
support all of them. I would ask unanimous consent that I be 
added before we vote to as a cosponsor----
    Ms. Ros-Lehtinen. Without objection, will do so.
    Mr. Connolly [continuing]. H.R. 2646. Thank you. And I 
particularly want to thank my friend and colleague, Ted Deutch, 
for his passion and commitment to the Levinson family and for 
the cause of Bob Levinson. Everything he said is absolutely 
correct. No civilized nation can kidnap somebody visiting that 
country with impunity, indefinitely, and with no cause. And 
that is not the rule of law. That is not how civilized nations 
behave. And we certainly hope Mr. Levinson can be rejoined with 
his family at the earliest possible time.
    Madam Chairman, I think it is also important, I was 
listening to my friend, Mr. Chabot, and I agree with him about 
the hypocrisy involving human rights in Israel and the Human 
Rights Commission at the United Nations, but I think it is 
important we have to be consistent. It would be nice if the 
President of the United States would speak out about human 
rights when he has the opportunity, an opportunity he did not 
choose to use when he visited Saudi Arabia, an opportunity he 
did not choose to use when he visited with the Russian foreign 
minister, and one can go down the list. It is vital that we 
speak with one voice and that we speak consistently in 
upholding rule of law and universal human rights, whether it be 
in Cuba, or Iran, or Venezuela.
    And we need to speak with one voice, and, so, I would hope 
the President would hear that message from Mr. Chabot and 
myself and others. It is really important that it come from the 
top if we really mean it, and if we are going to effectuate 
change.
    With that, Madam Chairman, I, again, thank you for bringing 
these bills to us today. Happily I support all of them, and 
thank you for your leadership. I yield back.
    Ms. Ros-Lehtinen. Thank you so much, sir. Thank you.
    And our hero, Mr. Mast.
    Mr. Mast. Thank you, Madam Chair. What an incredible series 
of resolutions. I applaud this committee for their work on 
them. They get directly to the heart of the most important 
issues for this committee. We identify and work with our allies 
like Jordan, with our friends like Israel. They seek to be the 
light. We call out evil. We call out injustice in Iran, 
Hezbollah where we see it. These resolutions, they vow truth. I 
am proud to support them, proud of this committee for their 
work on them, and I yield back. Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Mast.
    Mr. Schneider was here. He is not here? Mr. Lieu.
    Mr. Lieu. Thank you, Madam Chair and Ranking Member Deutch 
for holding today's markup. I support all the legislation under 
consideration today and am pleased that one of those measures 
is a resolution I introduced with Congressman Ted Poe. I also 
want to thank Congressman Chabot for his kind words today and 
for being a coauthor of the resolution.
    This legislation recognizes the incredible economic 
partnership and relationship between the United States and 
Israel, and encourages the administration to explore new areas 
of cooperation in promising fields like energy, water 
conservation, neurotechnology, and cybersecurity.
    Today, two-way trade is $40 billion annually, and despite 
representing only 2 percent of the population in the region, 
Israel is the third largest importer of U.S. goods in the 
region. And Israel, in fact, as mentioned before, has more 
companies listed on the NASDAQ than any other country, except 
the U.S. and China, and this is fueling amazing innovations in 
companies from Silicon Beach in Los Angeles to Silicon Wadi in 
Tel Aviv, and the partnership has even thrived at the State 
level with over 30 U.S. States, including my home State of 
California, signing agreements with Israel to deepen 
cooperation on mutual areas of interest.
    This revolution enjoys broad support in both the House and 
Senate, and I hope we continue to move it through Congress to 
send a strong bipartisan support for deepening U.S.-Israel 
cooperation in a promising field of science and technology. And 
with that, I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Lieu. Mr. 
Schneider of Illinois.
    Mr. Schneider. Thank you, chairman, and I want to thank 
Chairman Ros-Lehtinen and Ranking Member Deutch for holding 
this markup today. I appreciate the timely consideration of 
these bipartisan pieces of legislation that address key foreign 
policy issues, and also wish to express my support for all of 
them. One such issue is the terrorist organization, Hezbollah, 
and its impact around the globe.
    I was pleased to see that in 2013, the European Union 
designated Hezbollah's military wing as a terrorist 
organization. But this is simply not enough. That is why I am 
proud to colead with my colleagues H. Res. 359, which is a 
resolution that urges the EU to designate Hezbollah in its 
entirety as a terrorist organization.
    The resolution also expresses appreciation to the EU for 
progress in countering Hezbollah activities since the 2013 
designation, and urges the EU to increase pressure on the group 
by freezing assets in Europe, prohibiting fundraising 
activities, and improving cross-border cooperation between EU 
members in combating Hezbollah.
    I am also proud to cosponsor H. Res. 218, which highlights 
the importance of the U.S.-Israel economic relationship, and 
encourages continued cooperation in the fields of science and 
technology.
    The U.S. and Israel have a robust partnership when it comes 
to innovation, and we have seen this manifested through the 
creation and success of programs, such as the United States-
Israel Binational Industrial Research and Development 
Foundation, U.S.-Israel Science and Technology Foundation, and 
the U.S.-Israel Binational Agricultural Research and 
Development Foundation.
    I look forward to the continued collaboration between our 
two nations and the innovative creations this partnership will 
deliver.
    I am also proud to be a cosponsor and colead of House 
Resolution 274, Condemning the Government of Iran's persecution 
of its Baha'i minority and continued violations of human 
rights.
    While Iran is a diverse country and home to religious 
minorities, including the Baha'is, as well a Jewish community 
with roots that go back to thousands of years, the government's 
autocratic rule in the name of a narrow interpretation of one 
version of Islam denies freedom of religion to many of its 
citizens, a liberty we value so deeply here in the United 
States, and enshrine in the First Amendment of our 
Constitution.
    This persecution of Iranian members of the Baha'i faith, 
which ranges from blatant discrimination in the educational and 
employment spheres, to the brutality of imprisonment and 
execution, cannot be tolerated. We must not forget that in 
addition to Iran's flagrant testing of intercontinental 
ballistic missiles, and outright support for terrorism that 
threaten Israel and our other allies in the region, the Iranian 
people also suffer at the hands of the regime.
    The U.S. Baha'i House of Worship is headquartered in the 
Chicago area, and I firmly stand with Baha'i community in the 
U.S. and Iran in calling for an end to this horrific religious 
persecution.
    I would also like to join my colleagues in highlighting the 
case of Robert Levinson, as has been noted, the longest-held 
U.S. civilian in our Nation's history. No family should have to 
go through what Mr. Levinson's family has gone through. I am 
pleased to see this subcommittee take up House Resolution 185, 
which calls on the Government of Iran to fulfill its repeated 
promises to assist in this case of Robert Levinson, and I look 
forward to him joining his family and welcoming his eighth 
grandchild.
    I would like to thank the subcommittee again for 
considering these important and relevant bills, and with that, 
I yield back.
    Ms. Ros-Lehtinen. Thank you so much. Mr. Suozzi?
    Mr. Suozzi. Thank you, Madam Chairwoman. I want to thank 
you and the ranking member for your excellent bipartisan 
cooperation on all of these different issues, and I want to 
make a special thank you to Ranking Member Deutch, for actually 
reintroducing me to Mr. Levinson's sons recently. There are 
seven children in the Levinson family, and it was 12 years ago 
that Mr. Levinson's mother-in-law passed away, and on Long 
Island I was there for the family wake, I was serving as the 
county executive at the time, and we were reintroduced here in 
the hallway, not long ago, by Mr. Deutch, and I want to thank 
him so much for doing that. And I want to thank him for his 
personal commitment to this family in trying to help relieve 
the suffering that they are undergoing. And in each of these 
different issues that we are addressing, everyone on this 
committee is working together to try and relieve suffering in 
different parts of the world, and this is really important 
work, and it is wonderful that when everything in politics seem 
so petty and small these days, that people can work together to 
try and achieve some common good. So I am happy to support each 
of these initiatives. Thank you so much.
    Ms. Ros-Lehtinen. Thank you, sir. And we are glad to see 
Mr. DeSantis and Mr. Zeldin with us, as well. And hearing no 
further requests for recognition, the question occurs on the 
items considered en bloc. All those in favor say aye. Aye. All 
those opposed say no.
    In the opinion of the Chair, the ayes have it, and the 
measures considered en bloc are agreed to. Without objection 
the measures considered en bloc are ordered favorably reported 
to the full committee as amended, and staff is directed to make 
any technical and conforming changes.
    That concludes our markup. The subcommittee stands 
adjourned. And thank you ladies and gentlemen for being with 
us.
    [Whereupon, at 10:33 a.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
  

                                 [all]
</pre></body></html>
